MEMORANDUM

DATE:


TO:           Bradley Poston, Interim Director
 Division             of Acquisition and Cooperative Support

FROM:         Deborah H. Cureton
              Associate Inspector General for Audit

SUBJECT:      NSF OIG Audit Report No. OIG-06-1-012, Report on Audit of RTSC
              Polar Services Billing System Internal Controls


In response to your request for audit assistan ce we contracted with the Defense Contract
Audit Agency (DCAA) to perform a series of audits of the Raytheon Polar Services
Company’s (RPSC) Calendar Year 2000-2004 in curred cost proposal subm issions of
costs claim ed under NSF Contract OPP-0000373. As these audits are com pleted and
issued to the NSF OIG by DC AA’s Herndon Branch Office, we provide the results and
our recommendation s to the Div ision of Acquisition and C ooperative Support (D ACS)
for appropriate action. This DCAA audit report addresses RPSC’s billing system internal
controls.

The objec tives of the a udit wer e to dete rmine whether RP SC’s billing system internal
controls applied under th e NSF contract are: 1) in compliance with applicable laws and
regulations; 2) effective; and 3) adequate and operating effectively.

DCAA perform ed the audit in accordance        with Generally Accep     ted Government
Auditing Standards.


                                      Background

The United States Antarctic Program (USAP) has, since 1971 when NSF assumed full
responsibility for USAP, provided a perm anent presence and overseen U.S. scientific
interests in Antarctica. RPSC, located in Centennial, Colorado, is a unit of Raytheon
Technical Services Company (RTSC) headquart ered in Reston, Virg inia. RPSC is under
contract with NSF to provide science, ope rations, and m aintenance support to sustain
year-round research program s. The contract co nsists of a five-year base period and five
option periods for a total of ten years and is valued at $1.1 b illion. The charges claime d
against the contract average                         .


                                   Summary of Results

On April 3, 2006, DCAA Herndon Branch Office issued “Report on Audit of RTSC Polar
Services Billing System Internal Controls” (see Attachment). The auditors found that the
internal controls governing RTSC and RPSC’s billing system are inadequate. DCAA
identified s everal sign ificant deficiencies. T he deficien cies c ould adversely affect
RPSC’s ability to record, process, summarize, and report billings to NSF in a manner that
is consistent with its NSF USAP contract terms and conditions.

A brief summary of t he DCAA audit finding s concerning RPSC’s inadequate billing
system internal controls follows:

•   Inadequate Management Review of Payment Requests and Expenditures RPSC did
    not docum ent m anagement reviews of the Advance Paym ent Requests or Quarterly
    Expenditure Reports su bmitted to NSF. A dditionally, RPSC em ployees tasked with
    preparing the Quarterly Expenditure Repor ts were not briefed on the NSF USAP
    contract’s initial and freque ntly changing term s and cond itions caused by contract
    modifications between RPSC and NSF. Thes e deficiencies may result in billings to
    NSF that do not comply with the NSF USAP contract terms and conditions.

•   Lack of Tra ining RPSC does not have an employ ee-training program structured to
    produce em ployees with the necess ary skills to consis tently and accu rately iden tify
    and m onitor restricted funds and unallowabl e costs. This defi ciency can result in
    requests for im proper paym ents. In part icular, the RPSC training policies and
    procedures need to add ress how an em ployee can accurately determ ine if a cost is
    allowable for payment under the NSF USAP contract terms and conditions.

•   Lack of Segregation of Duties RPSC does not have adequa te segregation of duties in
    the billing process to prevent or identify   billing errors. RPSC currently has one
    employee who prepares and approves bot         h the requests for advance contract
    payments and the Quarterly Expenditure Reports docum enting how RPSC spent the
    advance payment funds. Concentrating th e duties for requesting and accounting for
    advance paym ents in o ne RPSC employee si gnificantly in creases the risk th at an
    accounting error will not be identified and co rrected. This could result in a m aterial
    misstatement of contract costs by RPSC to NSF.

•   Inadequate Internal Control for Cost Monitoring RPSC doe s not have policies and
    procedures to correctly cl assify costs belonging to Restricted W ork Breakdown
    Structures. W ithout policies and opera ting procedures, the RPSC e         mployees
    responsible for classifying the costs       cannot ensure their own higher-level


                                             2
    management or NSF that they correctly     recorded and billed contract costs in
    compliance with the NSF USAP contract terms and conditions.1

•   Lack of Policie s and Procedures f or Billing Re conciliations RPSC does not have
    written policies and procedures to reconc ile Quarterly Expenditure Reports to the
    source acco unting reco rds, possib ly resu lting in over billin gs to NSF. RPSC uses
    multiple sys tems to track and m onitor costs f or the NSF contrac t and does not bill
    directly from its audited accounting system. Therefore, RPSC should reconcile costs
    billed on th e Quarter ly Expenditur e Reports to the costs ref lected in its audite d
    accounting system r ecords.2 Furtherm ore, RPSC pr ovided no evidence of
    comparisons between the actual ra tes to the billed ce iling rates to ens ure that th e
    lower of those rates are always billed.

•   Inadequate Monitoring of Subcontractor RPSC does not have written polic ies an d
    procedures f or m onitoring its subco ntractors’ accounting a nd billing s ystems. This
    deficiency may result in inaccurate subcontra ctor billings to RPSC which would, in
    turn, affect billings to the NSF USAP contract. 3 Policies and procedures would guide
    RPSC e mployees in perform ing, a ssessing, and docum enting the risk that RPSC
    subcontractors can accurately reco rd and bill the costs of sub contract performance in
    accordance with the subcontract terms and conditions.

We believe these deficiencies co ntributed to the $33.4 m illion of questioned costs
identified in our March 31, 2005 1 audit report. Further, th e lack of adequate billing
controls combined with deficiencies identified in other RPSC business processes prevents
RPSC from ensuring the reliability of its current or future billings to NSF.


                                           Recommendation

The DCAA audit report recomm ends im provements to internal controls over RPS C’s
billing system. Accordingly, we recomm end that NSF’s Directo r of the Division of
Acquisition and Cooperative Suppo rt work with RTSC and R PSC to address all of the
recommendations in the DCAA report and ensure that RPSC:

•   Establishes adequate policies and proce dures, including an internal m anagement
    oversight program and a n employee training program , to ens ure compliance with the
    requirements of the USAP contract. An ove rsight program should ensure that RPSC

1
  RPSC’s misclassification of indirect costs as direct costs resulted in NSF being incorrectly billed for
                 of unallowable costs between January 1, 2000 and December 31, 2002. In addition,
overcharges including indirect costs and unsupported costs resulted in a total of $33.4 million in questioned
costs. See NSF OIG Report OIG-5-01-005, Audit of Raytheon Polar Services Company’s Costs Claimed
FY 2000-2002 dated March 31, 2005.
2
  The monetary impact of RPSC’s failure to perform reconciliations between NSF billings and RPSC
accounting records was also reported in NSF OIG Report OIG-5-01-005.
3
  The inadequate monitoring of subcontractors by NSF was previously reported to NSF in NSF OIG Report
OIG-06-2-003, Survey and Internal Control Assessment Review of the RPSC dated March 15, 2006.



                                                     3
   management conducts periodic reviews of its billing process; provides for em ployees
   trained in current contract requirem    ents; adequately segregates the duties of
   employees preparing and approving billi      ng docum ents; identifies, selects an d
   approves costs related to the NSF USAP cont ract; reconciles the quarterly report and
   the source of the cost; and monitors subcontractor accounting and billing systems.

In its respo nse to the draf t of the DCAA report, RPSC agreed to u pdate its cu rrent
policies and procedures to re solve the issues identified. However, NSF should follow-up
to ensure RPSC’s proposed actions are ade quate to address the report recomm endations
and are effectively implemented.

We consider the issues in the audit r eport to be s ignificant. Accordingly , to help ensure
the findings are resolv ed with in six m onths of issuance of the aud it r eport, please
coordinate with our of fice during the resolution period to develop a mutually ag reeable
resolution of the audit recomm endations. The findings should not be closed until NSF
determines that all recomm endations have been adequately addr essed and proposed
corrective actions have been satisfactorily implemented.

We are providing a copy of this m emorandum to the Director of the Office of Polar
Programs, the Director of Budget, Finance and Award Managem ent, and the Director of
the Division of Institution and Awa rd Support. The responsibility for audit resolutio n
rests with DACS. Acco rdingly, we ask that no action be taken c oncerning the report’s
findings without first consulting DACS at (703) 292-8242.


                                OIG Oversight of Audit

To fulfill our responsibilities under Government Auditing Standards, the Office of Inspector
General:

   •   Reviewed DCAA’s approach and planning of the audit;

   •   Monitored the progress of the audit at key points;

   •   Coordinated periodic meetings with DCAA and OIG management to discuss audit
       progress, findings, and recommendations;

   •   Reviewed t he audit re port, pre pared by DCAA to ensure   compliance with
       Government Auditing Standards and Offic e of Management and Budget Circular s;
       and

   •   Coordinated issuance of the audit report.

DCAA is responsible for the attached auditor’s report on RPSC dated April 3, 2006 and
the conclusions expressed in the report. The NSF OIG does not express any opinion on
the conclusions presented in DCAA’s audit report.


                                             4
We also want to bring to your attention that DCAA has brie fly discussed the results of
several other audits perform ed at RTSC or Raytheon Corporate Headquarters beginning
on page 19 of the attached DCAA report. Ma ny of the reports have information that may
be useful to NSF in administ ering its USAP contract with RPSC. If NSF desires a copy
of any of the referenced DCAA reports, plea se contact Ken neth St agner at (303) 312-
7655.

We thank you and your s taff for the assistance t hat was extended to us during the audit. If
you have a ny questi ons about t he attac hed re port, pl ease contact Kennet h Stagner or
Jannifer Jenkins at (703) 292-4996.




Attachment - DCAA Report on Audit of RTSC Polar Services Billing System Internal
Controls dated April 3, 2006.

cc:    Karl Erb, Director, OPP
       Thomas Cooley, Director, BFA
       Mary Santonastasso, DIAS




                                              5
             DEFENSE CONTRACT AUDIT AGENCY

             AUDIT REPORT NO. 6161-2005P11010001

                                                                April 3, 2006

PREPARED FOR: National Science Foundation
              ATTN: Ms. Deborah Cureton
              Associate Inspector General for Audit
4201               Wilson Boulevard
              Arlington, VA 22230

PREPARED BY:      DCAA Herndon Branch Office
                  171 Elden Street, Suite 305
                  Building 2, 3rd Floor
                  Herndon, VA 20170
Telephone                         No.
FAX                         No.
E-m                        ail Address

SUBJECT:          Report on Audit of RTSC Polar Services Billing System Internal Controls

REFERENCES:       Prime Contract Number: PRSS-0000373

CONTRACTOR:       Raytheon Polar Services Company
                  Raytheon Technical Services Company
Raytheon                   Company
                  12160 Sunrise Valley Drive
                  Reston, VA 20191

REPORT RELEASE RESTRICTIONS: See Page 34
                                                                                    Page
CONTENTS:          Subject of Audit                                                   1
Executive                     Summary                                                 1
                   Scope of Audit                                                     2
                   Results of Audit                                                   3
Contractor                    Organization and Systems                               19
                   DCAA Personnel and Report Authorization                           33
                   Audit Report Distribution and Restrictions                        34
Appendix                                                                             35
Audit Report No. 6161-2005P11010001

                                     SUBJECT OF AUDIT

       We have examined the Raytheon Polar Services Company (RPSC) Billing System as of
June 2005 to assure the RPSC Billing System and related internal controls:

               •       comply with applicable laws and regulations,
               •       are effective over compliance with applicable laws and regulations, and
               •       are adequate and operating effectively.

       RPSC is responsible for establishing and maintaining an adequate billing system. Our
responsibility is to express an opinion on the adequacy of the billing system based on our
examination.


                                   EXECUTIVE SUMMARY

        In our opinion, the contractor’s billing system and related internal controls are inadequate
in part. Our examination disclosed seven (7) significant deficiencies in two (2) separate internal
control objectives (Management Reviews and Policies and Procedures) in the RPSC Billing
System that results in a reduction of the Government reliance on RPSC direct and indirect cost
billing to the Government. The deficiencies are as follows:

SIGNIFICANT ISSUES

       •   The RPSC Quarterly Expenditure Report and Advance Payment Requests do not
           show evidence of Management Reviews prior to submission to the government.

       •   RPSC has no formal training process for reporting expenditures. In addition, RPSC
           has no training process to assist employees in identifying and monitoring restricted
           funds and unallowable costs.

       •   RPSC did not brief the contract upon award of the Polar Services contract. Adequate
           preparation and maintenance of contract briefs as part of the billing process is
           necessary to disclose all significant requirements and all current and relevant changes
           to the contract for billing and other RPSC personnel requiring contract specific
           information.
Audit Report No. 6161-2005P11010001

       •   RPSC has no written policies and procedures requiring segregation of duties between
           the employee who prepares, approves or certifies the Advance Payment Requests and
           the Quarterly Expenditure Reports. RPSC did not provide adequate supporting
           documentation of an actual process that monitors cost incurred and subsequently
           billed on restricted Work Breakdown Structures (WBS). We found no process in
           place to identify, select and approve costs incurred applicable to WBS with restricted
           funds.

       •   RPSC did not provide any evidence of reconciliations performed between the
           Quarterly Expenditure Reports and the source of cost (SAP Accounting System).
           Furthermore, RPSC provided no evidence of comparisons between the actual rates to
           the billed ceiling rates to ensure that the lower of those rates are always billed.

       •   RPSC did not provide adequate supporting documentation on how it monitors the
           adequacy of the subcontractor’s accounting and billing systems in a timely manner.


                                       SCOPE OF AUDIT

       We conducted our examination in accordance with generally accepted government
auditing standards. Those standards require that we obtain a sufficient understanding of internal
controls to plan financial audits and determine the nature, timing, and extent of tests to be
performed. An examination of internal controls includes:

       •   identifying relevant system control objectives and associated control activities,
       •   obtaining an understanding of all applicable components of internal control for the
           identified control objectives and activities,
       •   determining if the internal controls are adequate and in operation, and
       •   assessing control risk to use as a basis for planning the nature, timing, and extent of
           substantive testing in other attestation audits.

       We evaluated the billing system using the applicable requirements contained in the:

       •   Federal Acquisition Regulation (FAR);
       •   Defense FAR Supplement (DFARS); and
       •   Cost Accounting Standards (CAS).




                                                 2
Audit Report No. 6161-2005P11010001

       Our examination specifically tested the billing system's internal control procedures
associated with the following control objectives:

       •   Management Reviews;
       •   Policies and Procedures; and
       •   Implementation of Policies and Procedures.

       Test procedures were applied from August 2005 to June 2005.

       We believe that our examination provides a reasonable basis for our opinion.

        Because of inherent limitations in any internal control, misstatements due to error or
fraud may occur and not be detected. Also, projections of any evaluation of the internal control
over the billing system to future periods are subject to the risk that the internal control may
become inadequate because of changes in conditions, or that the degree of compliance with the
policies or procedures may deteriorate.


                                    RESULTS OF AUDIT

        In our opinion, RPSC Billing System and related internal control policies and procedures
are inadequate in part. Our examination noted certain deficiencies in the design or operation of
the internal control structure. In our judgment, these deficiencies could adversely affect the
contractor’s ability to record process, summarize, and report billings in a manner that is
consistent with applicable government contract laws and regulations. These conditions are
detailed in the “Statement of Conditions and Recommendations” on page 5 of this report and
summarized below:

       •   The RPSC Quarterly Expenditure Report and Advance Payment Requests do not
           show evidence of Management Reviews prior to submission to the government.

       •   RPSC has no formal training process for reporting expenditures. In addition, RPSC
           has no training process to assist employees in identifying and monitoring restricted
           funds and unallowable costs.

       •   RPSC did not brief the contract upon award of the Polar Services contract. Adequate
           preparation and maintenance of contract briefs as part of the billing process is
           necessary to disclose all significant requirements and all current and relevant changes
           to the contract for billing and other RPSC personnel requiring contract specific
           information.

                                                3
Audit Report No. 6161-2005P11010001

       •   RPSC has no written policies and procedures requiring segregation of duties between
           the employee who prepares, approves or certifies the Advance Payment Requests and
           the Quarterly Expenditure Reports.

       •   RPSC did not provide adequate supporting documentation of an actual process that
           monitors cost incurred and subsequently billed on restricted Work Breakdown
           Structures (WBS). We found no process in place to identify, select and approve costs
           incurred applicable to WBS with restricted funds.

       •   RPSC did not provide any evidence of reconciliations performed between the
           Quarterly Expenditure Reports and the source of cost (SAP Accounting System).
           Furthermore, RPSC provided no evidence of comparisons between the actual rates to
           the billed ceiling rates to ensure that the lower of those rates are always billed.

       •   RPSC did not provide adequate supporting documentation on how it monitors the
           adequacy of the subcontractor’s accounting and billing systems in a timely manner.

       We provided a draft copy of the Statement of Conditions and Recommendations to the
contractor’s representative on January 24, 2006. We discussed the results of audit with

Governance in an exit conference held on March 22, 2006. RPSC agreed to make changes to the
controls related to management reviews, training, segregation of duties, monitoring costs
incurred on restricted WBS, and reconciliation of the Quarterly Expenditure Report and SAP
Accounting System. In addition, RPSC agreed that RTSC Long Beach Billing Department will
maintain the master copy of the Raytheon Polar Services contract brief. According to
                                          , a copy of the most current contract brief will also be
maintained by the Controller at Raytheon Polar Services. The complete text of the RPSC
response, dated February 24, 2006 appears as an Appendix of this report and is also incorporated
into the Statement of Conditions and Recommendations.

       We examined only the RPSC Billing System. Accordingly, we express no opinion on the
contractor’s internal controls taken as a whole.




                                                4
Audit Report No. 6161-2005P11010001

             STATEMENT OF CONDITIONS AND RECOMMENDATIONS

STATEMENT No. 1 - MANAGEMENT REVIEWS

CONDITION:

The RPSC Quarterly Expenditure Reports and Advance Payment Requests do not show evidence
of management reviews prior to submission to the government. We observed that the primary
person generating Advance Payment Requests and Quarterly Expenditure Reports also approved
and certified the same documents. This is considered a serious deficiency in the billing process
because it increases the probability that material misstatements and errors may occur. A member
of management higher than the person generating the billing documents should review and
approve the documents. The existence of this internal control (i.e., management reviews) will
increase the reliance that can be placed on the cost representations from the contractor’s
accounting system.

RECOMMENDATION:

We recommend RPSC develop policies and procedures on management reviews of its billing
process involving Advance Payments and Quarterly Expenditure Reports.

RPSC policies and procedures should address periodic monitoring and regular compliance
reviews of Advance Payment Requests and Quarterly Expenditure Reports to ensure that the
billing process complies with applicable regulations and contract provisions.

Policies and procedures for management reviews should also define lines of authority as well as
duties and responsibilities for those personnel involved in management reviews. Management
duties and responsibilities related to the Advance Payment Requests and Quarterly Expenditure
Reports should include:

       •   What data is reviewed by whom?
       •   What level of management or position is responsible for conducting the reviews?
       •   Are the reviews delegated by a higher level of management and reported accordingly?
       •   How approvals are documented?
       •   How changes are directed and incorporated from the official books and records (SAP
           Accounting System) to the Quarterly Expenditure Report?
       •   Definitions as to tasks that management is required to perform.
       •   Specific interval of time on when the management reviews will be conducted.




                                               5
Audit Report No. 6161-2005P11010001

       •   The policy should require that documentation be maintained as evidence that
           management compliance reviews were performed and document the results of follow
           up reviews. This documentation should include but not be limited to the signature of
           the person who performed the review and the date in which it was performed.
       •   The policy should also require follow up reviews be performed for any findings and
           recommendations identified during the management review process. The policy
           should address tracking responses and resolutions of corrective actions as well as
           provide that corrective actions are documented and verified.

CONTRACTOR’S RESPONSE:

RPSC response letter, dated February 24, 2006 stated that “RTSC makes every effort to ensure
that it complies with all regulations and standards required as a contractor to the U.S.
Government.”

“With respect to the noted deficiencies and recommendations, RTSC – Polar Services agrees to
create a Polar Services Management Review Procedure to address periodic monitoring and
regular compliance reviews of Advance Payment Requests and Quarterly Expenditure Reports to
ensure proper oversight per the audit recommendation. The procedure will be created by
April 30, 2006.”

AUDITOR’S COMMENTS:

RPSC agreed to develop and implement a procedure on management reviews of its billing
process involving Advance Payments and Quarterly Expenditure Reports. However, the
contractor’s response is not detailed or descriptive enough for us to determine whether or not its
corrective actions will be adequate. We will perform a follow-up review once the contractor has
had sufficient time to implement adequate controls to correct the deficiencies and comply with
our recommendations. For us to evaluate the adequacy of the corrective action plan for a follow-
up review, the contractor should document and maintain the plan in sufficient detail to
demonstrate how each of our recommendations was addressed.


STATEMENT No. 2 - POLICIES AND PROCEDURES ON TRAINING

CONDITION:

RPSC has no formal training process for reporting expenditures. In addition, RPSC has no
training process to assist employees in identifying and monitoring restricted funds and
unallowable costs. We consider the lack of a formal training process a serious deficiency
because it increases the risk of inaccurate Expenditure Reports and/or Advance Payment

                                                6
Audit Report No. 6161-2005P11010001

Requests not being prepared in accordance with applicable laws, regulations, and contract terms.
All appropriate personnel should have training in the preparation of these reports/documents to
minimize or avoid errors as well as enable personnel to become efficient and accurate in the
reporting process.

RECOMMENDATION:

We recommend RPSC develop a training manual which describes in detail the various steps
required in the billing process to include:

   Advance Payment Requests:

       •   The process on how advance payment requests are generated. This should reference
           all sources of information typically used in determining the amount of the advance
           payment requested.
       •   The forms used in requesting an advance payment.

   Quarterly Expenditure Reports:

       •   The methodology used in downloading cost data from the RTSC Accounting System
           for generating a Quarterly Expenditure Report.
       •   The methodology used in uploading the data into the POFMS System.
       •   The process on how the data in the POFMS System is reconciled to the SAP
           Accounting System.
       •   The steps required to generate a Quarterly Expenditure Report.
       •   Details of all approvals required during the process including internal and external
           approval requirements.

RPSC should also develop written policies and procedures that describe the training required for
its billing employees. RPSC policies and procedures should require:

       •   Employees involved in the billing process to be trained in the development of
           Advance Payment Requests, Quarterly Expenditure Reports, monitoring costs on
           restricted WBS, reconciliation of costs relative to the RPSC requirements, and all
           other billing and reporting requirements of the Polar contract.
       •   Training on the Federal Acquisition Regulation (FAR) clauses specific to the Polar
           contract and applicable Cost Accounting Standards (CAS).
       •   Instructions on the proper way of dealing with issues concerning allowability,
           allocability, and reasonableness of costs as they relate to government contracts.


                                               7
Audit Report No. 6161-2005P11010001

       •   Clarification on the frequency of training. The degree and frequency of training
           should be specific to ensure that employees are kept up to date on all changes in CAS,
           FAR, disclosure statement practices, and changes in contract billing or reporting
           requirements.
       •   Requirement to document training history. The policies and procedures should
           provide requirements for documenting and maintaining training records as evidence
           of the completion of the required training courses. Documentation of an employee’s
           training history will also assist in the determination of when an employee is required
           to take additional training to keep current on topics related to the billing function.

CONTRACTOR’S RESPONSE:

RPSC letter dated February 24, 2006 stated that “RTSC provides all employees with the
necessary training and or resources to perform their responsibilities. RTSC, through the
Raytheon Learning Institute, provides courses designed to accompany the training employees
have received within their respective departments. In addition, RTSC provides resource material
on the company website to assist employees, along with contact information for subject matter
experts. The website also provides access to all Raytheon Company and RTSC Policies and
Procedures for all functions (i.e. Finance, Contracts, Human Resources, Engineering, et al) for
governance and compliance.”

“RTSC believes in continued improvement in all areas including policies and procedures and
training. As a result of the suggestions provided in this audit report, we agree to develop a Polar
training manual that details the various steps required in the billing process and outlines the
training required. The training manual will be created by May 15, 2006.”

AUDITOR’S COMMENTS:

RPSC agreed to develop a Polar training manual that details the various steps required in the
billing process. We will perform a follow-up review once the contractor has had sufficient time
to implement adequate controls to correct the deficiencies and comply with our
recommendations. For us to evaluate the adequacy of the corrective action plan for a follow-up
review, the contractor should document and maintain the plan in sufficient detail to demonstrate
how each of our recommendations was addressed.




                                                 8
Audit Report No. 6161-2005P11010001

STATEMENT No. 3 - POLICIES AND PROCEDURES ON CONTRACT BRIEFS

CONDITION:

RPSC did not brief the contract upon award of the Polar Services contract. DCAA requested a
copy of the contract brief from RPSC at the inception of the audit. At that time, RPSC
developed a contract brief for audit purposes and had it reviewed by the RTSC contracts office.
The preparation and maintenance of a contract brief as part of the billing process is necessary to
disclose all significant requirements and all current and relevant changes to the contract for
billing and other RPSC personnel requiring contract specific information. The contract brief
should provide for all restrictions, profit/fee provisions, identification of unallowable and non-
billable cost and all other special requirements of the contract. The lack of a contract brief may
result in billings that are outside contract terms and conditions.

RECOMMENDATION:

We recommend RPSC develop and maintain a contract brief that can be used for the purpose of
RPSC personnel. In addition, we recommend that policies and procedures on the adequate
preparation and maintenance of contract briefs, as part of the billing process, be developed to
ensure that briefs are prepared and maintained on a current basis. These policies and procedures
should include:

       •   Detailed description of the contract briefing process and how often the contract brief
           will be updated;
       •   List of all documentation required to be included in the contract brief (e.g., contract
           clauses, ceiling rates, identification of unallowable costs, contract restrictions, special
           requirements, identification of non-billable cost, etc.);
       •   Requirement to include all contract modifications, withholds, and special provisions;
       •   Someone above the employee who prepared the contract brief should review all
           contract brief forms, validate the contract brief data, and initial the brief form as
           evidence of the review;
       •   Develop training on the contract briefing process to include interpreting contract
           provisions, identifying requirements, and accurately completing the required contract
           brief form.




                                                  9
Audit Report No. 6161-2005P11010001

CONTRACTOR’S RESPONSE:

On February 24, 2006                                          provided to DCAA a response to
the recommendations for the RPSC Billing System. Based on                 response, “RTSC
currently has a procedure in place for documenting and maintaining an adequate contract brief.
According to           , “RTSC uses form CMBD014 to maintain contract brief information for
billing purposes.”

An e-mail message sent by                           on March 23, 2006 states that the Long Beach
Billing Department is provided a copy of all contract modifications to ensure the information is
available to maintain a current copy of the contract brief. According to              , the form
CMBD014 was completed and is maintained by the Long Beach Billing Department for the
Polar Contract. The Long Beach Billing Department will maintain the master copy of the
contract brief and will ensure that the form CMBD014 remains current for the Polar Contract. In
addition,          stated that a copy of the most current contract brief will also be maintained by
the RPSC Controller.

AUDITOR’S COMMENTS:

RPSC has been directed by the National Science Foundation to use the Quarterly Expenditure
Report Form for billings and also the Advance Payment Requests Form.

In addition, the RPSC business unit does not utilize the Standard Form 1034 generated by the
Long Beach Billing Department. Furthermore, the Quarterly Expenditure Report is not
generated from the same system as the Standard Form 1034. The Standard Form 1034 is
generated using the SAP Accounting System and the Quarterly Expenditure Report is generated
out of the Polar Operations Financial Management System (POFMS). For these reasons, the
generation and maintenance of the contract brief form at the Long Beach location does not
satisfy the requirement for a contract brief as a control objective in the RPSC Billing System.

RTSC Long Beach should provide a copy of the most current contract brief including contract
modifications to RPSC Billing Department. We recommend that RPSC Billing Department
maintain a file with a copy of the most current contract brief for the Polar Contract including:

       •   List of all documentation required to be included in the contract brief (e.g., contract
           clauses, ceiling rates, identification of unallowable costs, contract restrictions, special
           requirements, identification of non-billable cost, etc.); and
       •   All contract modifications, withholds, and special provisions.




                                                 10
Audit Report No. 6161-2005P11010001

We also recommend that someone organizationally higher than the employee who prepared the
contract brief review all contract brief forms, validate the contract brief data, and initial the brief
form as evidence of the review.

We will perform a follow-up review once the contractor has had sufficient time to implement
adequate controls to correct the deficiencies and comply with our recommendations. For us to
evaluate the adequacy of the corrective action plan for a follow-up review, the contractor should
document and maintain the plan in sufficient detail to demonstrate how each of our
recommendations was addressed.


STATEMENT No. 4 - POLICIES AND PROCEDURES ON SEGREGATION OF DUTIES

CONDITION:

The RPSC Controller has many roles related to the Polar Services contract. These tasks include
generating, approving, and certifying Advance Payments Requests and Quarterly Expenditure
Reports. In addition, the RPSC Program Manager is authorized to make Advance Payment
Requests while the RPSC Budget Manager is authorized to prepare the Quarterly Expenditure
Reports.

RPSC has no written policies and procedures requiring segregation of duties between the
employee who prepares, approves or certifies the Advance Payment Requests and the Quarterly
Expenditure Reports. The person generating an Advance Payment Request should not also
approve or certify that request since it increases the risk that material misstatement or errors may
occur.

Moreover, RPSC lacks written policies and procedures requiring segregation of duties between
the employee who prepares and approves the Quarterly Expenditure Report. The person
preparing the Quarterly Expenditure Report should not also approve that report since it increases
the risk that material misstatements or errors may occur.

RECOMMENDATION:

We recommend RPSC develop a policy to establish segregation of duties between the employee
who prepares and approves billing documents. Specifically, a position such as Accountant or
Budget Manager may generate the Advance Payment Request while the Controller should then
review and approve that request. The requirement for the contractor to “certify” an Advance
Payment Request should only be performed by the Controller as long as he/she did not
prepare/generate the request.


                                                  11
Audit Report No. 6161-2005P11010001

In addition, an Accountant or other position may generate the Quarterly Expenditure Report
while the Controller should then review and approve the report and further certify it as directed
by NSF.

If the Controller is required to prepare either of the billing documents, the review and approval
should be made by another member of management such as the Program Manager to ensure that
billing documents such as requests and reports are free of misstatements or errors.

CONTRACTOR’S RESPONSE:

RPSC agrees to include in the Polar Services Management Review Procedure the appropriate
segregation of duties as outlined in the audit recommendation. This procedure will be created by
April 30, 2006.

AUDITOR’S COMMENT:

RPSC has agreed to implement the recommendations related to appropriate segregation of duties.
We will perform a follow-up review once the contractor has had sufficient time to implement
adequate controls to correct the deficiency and comply with our recommendation.


STATEMENT No. 5 - POLICIES AND PROCEDURES ON MONITORING COSTS
INCURRED ON RESTRICTED WBS

CONDITION:

RPSC did not provide adequate supporting documentation of an actual process that monitors cost
incurred and subsequently billed on Restricted Work Breakdown Structures (WBS). We found
no process in place to identify and approve costs applicable to a “WBS” with restricted funds.
This is a significant deficiency because an internal control should be in place to assure that only
the applicable costs necessary for the performance of the project are being charged to the
appropriate WBS with restricted funds. RPSC needs to have an internal control implemented to
track the restricted WBS to ensure that the costs are being used only for the assigned project. No
other project should benefit from restricted funds other than the assigned project based on the
contract’s terms.




                                                12
Audit Report No. 6161-2005P11010001

RPSC has implemented the following two (2) policies:




RECOMMENDATION:

We recommend that RPSC develop written policies and procedures including a process to
identify, select and approve costs incurred applicable to WBS with restricted funds. RPSC
should assign an employee for each project with restricted funds who would be responsible for
identifying and selecting the type of costs necessary to perform the project based on the
contract’s terms. A person managerially higher than this employee should review the costs list
and include his/her signature of approval as evidence that a review has been performed. In
addition, we suggest that RPSC implement a process that provides for approval of all purchases
on restricted WBS by authorized personnel actually receiving purchased items at the “on Ice”
location. This process is meant to ensure that costs booked to a restricted WBS are related to
items used solely for that project. Controls should be in place to alleviate concerns of cross
charging between WBS elements (projects) and also to provide more reliance on costs accrued
for restricted WBS.

Lastly, we recommend that RPSC, as part of its billing process, develop a policy for monitoring
costs incurred on restricted WBS and subsequently compare the incurred costs to the special
funding limits associated with those restricted projects.




                                               13
Audit Report No. 6161-2005P11010001

CONTRACTOR’S RESPONSE:

RPSC letter, dated February 24, 2006 stated that “there is a process in place to identify and
approve costs applicable to a “WBS” with restricted funds”. The letter also states that “there are
processes in place to ensure that only authorized personnel approve both the requisitioning of
material and charging of labor costs to projects”. In addition, the specially funded projects like
Ice Cube and SPSM have a reconciliation of the project costs to the accounting system each
month. According to                                              , RPSC have a Project Manager,
Planning and Controls Manager, and Budget Analyst assigned to each restricted fund project.
“Processes are in place to provide for the appropriate approval of all purchases on restricted
projects”. RPSC believes that the areas raised in the recommendation section are covered in
their processes; however, these are not captured in one procedure. RPSC will develop a
procedure that covers the items addressed by DCAA in the recommendation. This procedure
will be completed by April 30, 2006.

According to                               does monitor the costs incurred on restricted WBS and
compares the incurred costs to the special funding limits associated with those restricted projects.
RPSC believes in continued improvement in all areas including policies and procedures and
training. As a result of the suggestions provided in this audit report, RPSC agreed to include in
the procedure on the billing process the monitoring of costs incurred and comparison of the
incurred costs to the special funding limits.

AUDITOR’S COMMENT:

RPSC has agreed to implement the recommendations related to a process to monitor costs
incurred and subsequently billed on restricted WBS. We will perform a follow-up review once
the contractor has had sufficient time to implement adequate controls to correct the deficiencies
and comply with our recommendations. For us to evaluate the adequacy of the corrective action
plan for a follow-up review, the contractor should document and maintain the plan in sufficient
detail to demonstrate how each of our recommendations was addressed.


STATEMENT No. 6 - POLICIES AND PROCEDURES ON RECONCILIATION OF THE
QUARTERLY EXPENDITURE REPORT AND SAP ACCOUNTING SYSTEM

CONDITION:

RPSC did not provide any evidence of reconciliations performed between the Quarterly
Expenditure Reports and the cost accounting records. This is considered a deficiency in the
RPSC Billing System because RPSC uses multiple systems to track and monitor costs on the
Polar contract. Since the contractor does not bill directly from its approved accounting system,

                                                14
Audit Report No. 6161-2005P11010001

we believe the contractor should reconcile costs billed on the Quarterly Expenditure Reports to
the costs based on its accounting records to identify any variances as well as to support billed
costs.

Furthermore, RPSC provided no evidence of reconciliations between actual rates and billed rates.
RPSC follows the RTSC process that is in place to compare the actual rates to the plan rates,
annual forecast, and forward pricing rates. However, RPSC does not compare the actual rates to
the billed ceiling rates to ensure that the lower of those rates are always billed.

The comparison of actual rates to billed ceiling rates should always be performed to avoid over
billings to the Government. RPSC should bill the ceiling rates only if they are lower than the
actual rates as calculated on the RTSC variance reports.

RECOMMENDATION:

We recommend that RPSC develop written policies and procedures on reconciliations between
the Quarterly Expenditure Report and the source of cost (SAP Accounting System). We
recommend that RPSC implement a process to reconcile the cost on the Quarterly Expenditure
Report to the SAP Accounting System monthly and also document explanations for any
variances.

Since the Quarterly Expenditure Report is being prepared from the POFMS data, there should be
evidence that the costs billed on that report are the same as those recorded in the approved RTSC
accounting system. A reconciliation process would ensure greater reliance on the Quarterly
Expenditure Report by providing supporting documentation that the billing document is accurate
and free of material misstatements.

We recommend that RPSC assign someone managerially higher than the employee preparing the
reconciliation to review and approve the reconciliation. The reviewer should sign the
reconciliation and reference the date in which it was reviewed.

We encourage RPSC to include in its policies and procedures a detailed description of specific
steps to be performed in the event that the Quarterly Expenditure Report and the costs reflected
in the accounting system are different. Also, the policies should reference the specific personnel
who will be in charge to correct the variances reflected in the reconciliation and a detailed
explanation on how to make the corrections to the accounting system or the Quarterly
Expenditure Report.

In addition, RPSC should include in its policies and procedures a requirement to perform an
analysis of the RTSC monthly variance report. This analysis should include a comparison of the
actual rates and ceiling rates to ensure that the lower of billed or ceiling is always used (i.e.,

                                                15
Audit Report No. 6161-2005P11010001

billed) based on the contract’s terms. The analysis should be performed monthly and
documented for future review to ensure there is a process in place to monitor, adjust, and
document rate adjustments when they become necessary.

CONTRACTOR’S RESPONSE:

RPSC believes it did provide DCAA evidence of reconciliations between the Quarterly
Expenditure Reports and the cost reporting system, POFMS, which RPSC was directed to use by
NSF.

In addition, RPSC believes it provided evidence of reconciliation between SAP and POFMS.
RPSC also does compare actual rates to billed rates. The actual rates in all years have been
higher than the billed ceiling rates in the contract; as a result, RPSC has used the billed ceiling
rates in the Quarterly Expenditure Reports. In addition, RPSC does perform an analysis of the
RTSC monthly variance report on Overhead and G&A as outlined by RTSC. The review is
conducted monthly by the RPSC Controller. The Controller reviews the costs charged to date to
the Overhead and G&A accounts. If, through further research, errors are discovered, corrections
are requested to be processed by RTSC accounting. RPSC program personnel follow-up with
RTSC accounting personnel until it is validated that the requested corrections have been
processed in SAP. In addition, the Controller reviews the information to ensure that the forecast
for the year is on track. The Controller provides variance comments, corrections and updated
forecast information to RTSC.

RPSC agreed to develop a written procedure on the reconciliation between the Quarterly
Expenditure Report, the SAP Accounting System and POFMS. The procedure will address the
areas outlined in the audit report. The procedure will be created by May 15, 2006.

AUDITOR’S COMMENT:

DCAA disagrees with the contractor’s response due to the fact that no supporting documentation
was provided by RPSC of reconciliations performed between the Quarterly Expenditure Report
and SAP Accounting System. In addition, no supporting documentation was provided from
RPSC with reconciliations between actual rates and billed rates.

Moreover, RPSC agreed to develop a written procedure on the reconciliation between the
Quarterly Expenditure Report and SAP Accounting System. We will perform a follow-up
review once the contractor has had sufficient time to implement adequate controls to correct the
deficiencies and comply with our recommendations. For us to evaluate the adequacy of the
corrective action plan for a follow-up review, the contractor should document and maintain the
plan in sufficient detail to demonstrate how each of our recommendations was addressed.


                                                16
Audit Report No. 6161-2005P11010001

STATEMENT No. 7 - POLICIES AND PROCEDURES ON MONITOR THE ADEQUACY OF
SUBCONTRACTOR’S ACCOUNTING AND BILLING SYSTEM.

CONDITION:

RPSC did not provide adequate supporting documentation on how it monitors the adequacy of
the subcontractor’s accounting and billing systems. The RPSC Manager of Procurement
Services stated: “We rely on skilled and experienced subcontract administrators that have
experience in managing major subcontracts.”

“We also perform financial capability analysis prior to final source selection.” The contractor
also lacks written documentation that describes the billing process for direct materials and
subcontract costs.

RECOMMENDATION:

We recommend RPSC develop written policies and procedures that describe how it monitors the
adequacy of a subcontractor’s accounting and billing systems. The importance of monitoring the
subcontractor’s accounting and billing systems is to identify and resolve possible:

       •   overpayments/underpayments,
       •   adjustments,
       •   offsets, and refunds

RPSC should not depend on the subcontractor’s experience but instead develop and implement
policies and procedures to evaluate the subcontractor’s accounting and billing system.

We encourage RPSC to identify in its policies and procedures the specific job title designated to
perform monthly reconciliations of billed and paid amounts to subcontractors. This policy
should also state specific procedures to be completed in the event of variances between the billed
and paid amounts to subcontractors. In addition, RPSC should also include in its policies a
detailed description of the practices on direct materials and subcontractor billings. This will
avoid instances, for example, where direct material and subcontract costs are billed to the
Government based on accrued costs. These costs should be billed after the receiving report and
vendor invoices have been provided to RPSC.




                                                17
Audit Report No. 6161-2005P11010001

CONTRACTOR’S RESPONSE:

RPSC provided a letter to DCAA dated February 24, 2006 which included examples of RTSC
and RPSC processes and policies in place to monitor the adequacy of subcontractor’s accounting
and billing systems in the pre-award and post-award procurement cycle which are referenced
below. Both buyers and subcontract administrators are responsible for documenting and
monitoring the adequacy of the subcontractor’s accounting and billing system.




AUDITOR’S COMMENT:

In response to our recommendation, RPSC provided copy of the Supplier Financial Assistance -
Progress, Milestone and Advance Payments Policy (PP-03-04), the “Purchase Order File
Documentation” (PP-05-00) and the “Post-award Administration” policy (PP-03-00) on
February 24, 2006. We received copy of the policies used by RPSC to monitor the
subcontractor’s accounting and billing system after the completion of our fieldwork. As a result,
we were not able to test this area. We will initiate a follow up review in approximately (6)
months to verify the adequacy of RPSC monitoring of subcontractor’s accounting and billing
system based on the policies and procedures provided.


                                               18
Audit Report No. 6161-2005P11010001

                    CONTRACTOR ORGANIZATION AND SYSTEMS

I.     Organization

       RTSC’s headquarters is located in Reston, VA.

                                         reorganized, consolidating their seven (7) business units
into




       RTSC has a multi-disciplined workforce of approximately 10,000 employees. RTSC
provides technical, scientific, and professional services to defense, federal, and commercial
customers on all seven continents, including support for operations in space, at sea, and on land.
RTSC had annual sales of approximately                     in FY 2005, of which approximately
      are primarily government prime contracts and subcontracts. Of the government contracts
and subcontracts, approximately                    are flexibly priced (i.e. cost type and time and
materials (T&M) type).


                                                19
Audit Report No. 6161-2005P11010001

       The Polar Services business unit has a workforce of approximately 350 employees that
work solely on the Polar Services contract in various capacities to include management, finance,
accounting, general operations and specific scientific projects as directed by the contract.




                                               20
Pages 21-32 have been redacted in their entirety.
Audit Report No. 6161-2005P11010001

                                      DCAA PERSONNEL

Telephone                                                               No.
Primary contact(s) regarding this audit:




Other contact regarding this audit report:



                                                             FAX No.


                                                             E-mail Address


General information on audit matters is available at http://www.dcaa.mil/.

AUDIT REPORT AUTHORIZED BY:


                                                            /Signed/


                                                            Branch Manager
                                                            DCAA Herndon Branch Office




                                               33
Audit Report No. 6161-2005P11010001

                AUDIT REPORT DISTRIBUTION AND RESTRICTIONS

DISTRIBUTION
                                         E-mail Address
National Science Foundation
ATTN: Ms Deborah Cureton
Associate Inspector General for Audit
4201 Wilson Boulevard
Arlington, VA 22230

Raytheon Polar Services                  (Copy furnished thru NSF Contracting Officer)
Raytheon Technical Services Company
Raytheon Company
12160 Sunrise Valley Drive
Reston, VA 20191


RESTRICTIONS




                                        34
Audit Report No. 6161-2005P11010001                  APPENDIX

                     CONTRACTOR’S WRITTEN RESPONSE




                                      35
                                                                       Technical Services Company LLC
                                                                       Polar Services

                                                                       7400 S Tucson Way
                                                                       Centennial, Colorado
                                                                       80112-3938 USA
                                                                       303.790.8606

24 February 2006

TO:          Defense Contract Audit Agency
                   Attn:
                   171 Eldon Street, Suite 315
                   Herndon, VA 20170-4810
                   (703) 295 2081

Ref: 1.) DCAA Audit Report,      06-02L-003-6161-2005P11010001, dated 24
January 20 06, “Raytheon Polar S ervices Co mpany Billing System review of
policies and procedures”.

SUBJECT: RTSC Re sponse to DCAA Audit Report 06-02L                   -003-6161-
2005P11010001, dated 24 January 2006, “Rayth       eon Polar Services Com pany
Billing System review of policies and procedures”.

The following comm ents addre ss the points raised in your audit report concerning the
adequacy of the internal contro ls ov er th e bi lling system and the ex tent RPSC is monitor ing
compliance with those c ontrols. The audit repor t outlin ed def iciencies in the inte rnal contro l
procedures associated with the following control objectives:

•     Management Reviews, and
•     Policies and Procedures

The below sets forth our response to the recommendations as made in the audit report.

Management Reviews

RTSC makes every effort to ensure that it com plies with all regulations and standards required
as a contractor to the U.S. Government.

With respect to the noted deficiencies and r ecommendations, RTSC – Polar Services agrees to
create a Polar Serv ices Manage Review Proced ure to address periodic monitoring and regular
compliance reviews of Advan ce Paym ent Requests and Q uarterly Expenditure R eports to
ensure proper oversight per the aud it recommendation. Th e procedure will be created by 30
April 2006.

Training

RTSC provi des all em ployees with the necess ary training and or reso urces to perfor m their
responsibilities. RTSC, through the Raytheon Learning Institute, provides courses designed to
accompany the training em ployees have received within their respectiv e departm ents. I n
addition, RTSC provides resource material on the com pany website to assist em ployees, along
with contact inform ation for subject m atter expe rts. The website also provides access to all
Raytheon Com pany and RTSC Policies and Pro            cedures for all functions (i.e. Finance,
Contracts, Human Resources, Engineering, et al) for governance and compliance.

RTSC believes in continued im provement in a ll areas including policie s and procedures and
training. As a result of the s uggestions provided in this audit report, we agree to develop a
Polar training manual that de tails the various steps required in the billing process and outlines
the training required. The training manual will be created by 15 May 2006.

Contract Briefs

RTSC currently has a procedure in place fo        r docum enting and m aintaining an adequate
contract brief. RTSC us es form CMBD014 to m aintain contract brief inform ation for billing
purposes. This form was completed and is m aintained by the Long Beach Billing Departm ent
for the Polar contract. The Long Be ach Billing Department and Polar Services will ensure that
this form remains current for the Polar contract.

Segregation of Duties

RTSC – Polar Services agrees to inc lude in the Polar Services Management Review Procedure
the appropriate segregation of duties as outlin ed in the audit recomm endation. This procedure
will be created by 30 April 2006.

Monitoring Costs Incurred on Restricted WBS

RTSC – Polar believes that th ere is a proces s in place to id entify and approve costs applicable
to a “WBS” with restricted funds . There are processes in place to ensure that only authorized
personnel approve both the requisiti oning of m aterial and charging of labor costs to projects.
In addition, the specially funded projects like Ic e Cube and SPSM have a reconciliation of the
project co sts to the accounting sy stem each month. Polar does hav e a P roject Manager,
Planning and Controls Manager, an d Budget Analyst assig ned to each restricted fund project.
Processes are in place to provide for the appro priate appro val of all purchases on restricted
projects. Polar believes that the areas raised in the recomm endation section are covered in our
processes, however, these are not captured in one procedure. Pola r will develop a procedure
that covers the item s addressed by DCAA in the recomm endation. T his procedure will be
completed by 30 April 2006.

Polar does monitor the costs incurred on restricted WBS and compares the incurred costs to the
special funding lim its associated with those rest ricted projects. Pola r believes in continued
improvement in all areas including policies and pr ocedures and training. As a result of the
suggestions provided in this audit report, we ag ree to include in the procedure on the billing
process the monitoring of cost s incurred and com parison of the incurred cos ts to the special
funding limits.

Reconciliation of the Quarterly Expenditure Report and SAP Accounting System

RTSC – Polar believes it did pr ovide DCAA evidence of reconciliations between the Quarterly
Expenditure Reports and the cost reporting system , POFMS, which Polar was directed to use
by NSF. In addition, P olar believes it provide d evidence of reconciliation between SAP and
POFMS. Polar also does compare actual rates to billed rates. The actual rates in all years have
been higher than the b illed ceiling rates in the c ontract; as a result, Polar has used the billed
ceiling rates in the Quarterly Expenditure Reports. In addition, Polar does perform an analysis
of the RTSC m onthly variance report on Ov erhead and G&A as outlined by RTSC. The
review is conducted monthly by the Polar Controller. The Controller reviews the costs charged
to date to the Overhead and G&A accounts. If , through further research, errors are discovered,
corrections are requ ested to be processe d by RTSC accounting. Polar program        personn el
follow-up with RTSC accounting personnel until it is validated that the requested corrections
have been processed in SAP. In addition, the C ontroller reviews the information to ensure that
the forecast for the year is on track. The C ontroller provides variance comments, corrections
and updated forecast information to RTSC.

RTSC – Polar ag rees to develop a written procedure on the recon ciliation between th e
Quarterly Expenditure Report, the SAP Accounti ng System and POFMS. The procedure will
address the areas outlined in the audit report. The procedure will be created by 15 May 2006.

Monitor the Adequacy of Subcontractor’s Accounting and Billing System

On going supply chain m      anagement processes currently provide ove r-site of suppliers
accounting and billing systems on the Polar contract. Examples of RTSC and RPSC processe s
and policies in place to monitor the adequacy of subcontractor’s accounting and billing systems
in the pre-award and post-award procurem       ent cycle are listed below. Both buyers and
subcontract administrators are responsible for documenting and monitoring the adequacy of the
subcontractor’s accounting and billing system.




If you have any questio ns or require any further info rmation please contact m e at
                .

Sincerely,
cc:
